No. 19-635

 

IN THE
Supreme Court of the Gnited States

DONALD J. TRUMP,
Petitioner,
v.

Cyrus R. VANCE, JR., IN HIS OFFICIAL CAPACITY AS DISTRICT ATTORNEY OF THE COUNTY
OF NEW YORK, ET AL.,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Former
Department of Justice Officials as Amici Curiae in Support of Respondents contains
7,282 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 4, 2020.

Ashwin P. Phatak
Counsel for Amici Curiae
